           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Falsification of FAA Airman Medical                                     Date:       July 22, 2005
           Certificate Applications by Disability Recipients

  From:    Kenneth M. Mead                                                               Reply to
                                                                                         Attn of:
           Inspector General

    To:    The Secretary
           Deputy Secretary
           Federal Aviation Administrator

           Our office, the Social Security Administration (SSA) OIG, and U.S. Attorney Offices in
           California, with considerable assistance from FAA’s Western Pacific Region Flight
           Surgeon and Chief Counsel offices, conducted an initiative to identify and prosecute
           egregious cases of certificated pilots who falsified FAA’s “Application for Airman
           Medical Certificate”, by not disclosing medical conditions they claimed in obtaining
           SSA disability benefits. This initiative was an outgrowth of an earlier security-related
           joint endeavor we conducted with SSA/OIG and other agencies to identify pilots using
           false social security numbers to obtain their pilot certificates. We believe the results of
           this California initiative afford the Department the opportunity to proactively address
           similar falsifications that may exist elsewhere through FAA administrative means, apart
           from any criminal process, such as that employed in this initiative. To this end, we are
           making recommendations to FAA, which are included below.

           This 18-month initiative, termed “Operation Safe Pilot,” resulted in criminal charges
           being brought against 45 California residents for making false statements to FAA on
           their Airman Medical Certificate applications 1 ; specifically, concealing their
           disqualifying medical conditions (and, in some instances, criminal histories) in order to
           obtain and maintain their pilot certificates. As of this date, 40 individuals have been
           formally charged (see attached U.S. Attorney’s Office Press Release for details 2 ). FAA
           has issued Emergency Revocation Orders against 16 of these individuals and notified the


           1
            The charges stemming from this initiative, both felony and misdemeanor, are only allegations and the defendants
           are presumed innocent unless and until proven guilty beyond a reasonable doubt.
           2
               http://www.usdoj.gov/usao/can/press/html/2005_07_18_Safe_pilot.html
                                                                                                                2

remainder that their certificates were being suspended. The following is a breakdown of
the 45 individuals being charged by type of FAA certificate held:

        Air Transport Pilot – 4
        Commercial Pilot – 6
        Private Pilot – 28 (including 2 board-certified medical doctors)
        Student Pilot – 7

As further background for this initiative, after providing SSA with a list of
approximately 40,000 persons holding current FAA Airman Medical Certificates in
Northern California, SSA discovered that approximately 3,220 individuals with pilot
certificates were collecting SSA benefits, to include disability benefits. Focusing on the
most serious cases meeting criminal prosecutive guidelines—those involving SSA full
disability benefits—prosecution of 48 individuals was pursued. These 48 cases involved
currently certificated pilots who were collecting full disability for well-documented
severe medical conditions, e.g., schizophrenia (including institutionalization), drug or
alcohol addiction, and disabling heart and back conditions. In all 48 cases, the
individuals failed to disclose their medical conditions to FAA as required in completing
and certifying their Airman Medical Certificate applications. In addition to falsifying the
FAA application, these pilots also failed to disclose their airman medical examination
results to SSA as required. The 48 subject pilots range in age from 25 to 71, with an
average age of 53 years, 7 months. We are cognizant of FAA’s age 60 rule for certain
pilots and note that a full two-thirds of the 48 subject pilots are under 60 years of age.

We coordinated with your Western Pacific Region Aerospace Medicine Division and
Counsel’s Office, asking that they review the SSA case files 3 of the subject 48 pilots to
determine whether their documented disability conditions would disqualify them from
holding an Airman Medical Certificate. (SSA case files include physician evaluations,
test results, and other medical evidence to support disability claims, as well as SSA
initial and recurrent determinations of disability.) FAA’s Regional Flight Surgeon
determined that none of the 48 individuals would have passed the airman medical
examination had the physicians conducting the examinations on behalf of FAA known
about their established disabilities. Our investigation disclosed evidence that at least
several of those being charged had piloted aircraft recently while drawing SSA full
disability, including a certificated Air Transport Pilot (ATP) flying cargo long-distance
for hire; an air ambulance helicopter ATP; and a corporate ATP flying Lear jets with
passengers aboard.

Of these 48 individuals, 45 are being prosecuted criminally, two died during the
investigation (both held Commercial Pilot certificates; one died from complications
3
 In a few instances, SSA case files were not available for review. Alternatively, SSA provided correspondence
describing the disabling conditions claimed by the disability recipients.
                                                                                                 3

stemming from his disability condition), and prosecution against the other was declined.
Absent some indication from the defendants that their medical disability claims to SSA
are fraudulent, FAA’s determination supports both the criminal charges and regulatory
enforcement action (i.e., certificate revocation).

As the results of this initiative involve only a portion of certificated pilots in California,
it is important that FAA take steps to proactively identify and address similar
falsifications occurring elsewhere across the greater community of certificated pilots.
Presently, FAA does not have a mechanism for (a) identifying certificated pilots who are
receiving medical disability benefits from any provider (SSA, the Department of
Veterans Affairs, and the Department of Labor); and (b) determining whether the
documented medical conditions of those disability recipients would disqualify them from
maintaining their Airman Medical Certificates.

We recommend that FAA, working with SSA and the other disability benefits providers,
expedite development and implementation of a strategy to carry out these checks and
take appropriate certificate enforcement action where falsifications are found. We would
be pleased to assist FAA in exploring options for accomplishing this, to include database
matching with record systems of the disability benefits providers, or, as an initial step,
statistical random sampling. FAA should also consider revising its Application for
Airman Medical Certificate in the near future to require applicants to explicitly identify
whether they are receiving medical disability benefits from any provider.

We have spoken about this matter with FAA’s Associate Administrator for Aviation
Safety, who is coordinating a meeting between our organizations to further address these
issues. In addition, we would be pleased to brief you on any aspect of Operation Safe
Pilot.

We ask that FAA keep our office informed of developments in this matter. If I can
answer any questions or be of further assistance, please contact me at x61959, or my
Deputy, Todd J. Zinser, at x66767.

Attachment
